             Audit Report




OIG-10-037
AUDIT REPORT
INFORMATION TECHNOLOGY: Improvements Needed in CDFI
Fund’s Access Controls and Configuration Management

February 25, 2010



Office of
Inspector General
Department of the Treasury
    Contents


Audit Report.................................................................................................. 2

    Results in Brief ............................................................................................. 2

    Background ................................................................................................. 3

    Findings and Recommendations ..................................................................... 4

        Weak Passwords Were Used in CDFI Fund Applications and Systems ............ 4
        Recommendations.................................................................................... 5

        CDFI Fund Systems Were Configured With Insecure Default Settings ............. 6
        Recommendations.................................................................................... 8

        A Critical Patch Was Not Applied for One CDFI Fund System ......................... 9
        Recommendation .................................................................................... 10

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ......................................              12
    Appendix     2:      Management Response .........................................................          13
    Appendix     3:      Major Contributors to This Report ...........................................          22
    Appendix     4:      Report Distribution ................................................................   23


Abbreviations

    CDFI Fund            Community Development Financial Institutions Fund
    FTP                  File Transfer Protocol
    NIST                 National Institute of Standards and Technology
    OIG                  Treasury Office of Inspector General
    SNMP                 Simple Network Management Protocol




                         Improvements Needed in CDFI Fund’s Access Controls and
                         Configuration Management (OIG-10-037)                                               Page 1
                                                                                  Audit
OIG
The Department of the Treasury
                                                                                  Report
Office of Inspector General




                        February 25, 2010

                        Donna Gambrell
                        Director
                        Community Development Financial Institutions Fund

                        The objective of this audit was to determine if the Community
                        Development Financial Institutions (CDFI) Fund had sufficient
                        protections in place to prevent intrusions into its network and
                        systems.

                        To accomplish our objective, we performed a series of vulnerability
                        assessments and penetration tests of the CDFI Fund’s network and
                        systems. Additionally, we performed a series of social engineering
                        tests to determine if users of the CDFI Fund’s network and
                        systems were aware of cybersecurity threats and users’ role in
                        protecting agency information technology resources.

                        We performed our fieldwork at CDFI Fund facilities in Washington,
                        DC, from February through April 2009. The audit was performed in
                        accordance with generally accepted government auditing
                        standards.1 Our objective, scope, and methodology are described in
                        appendix 1.


Results in Brief
                        We determined that, for the most part, the CDFI Fund has
                        sufficient protection in place for its network and systems.
                        Specifically, most CDFI Fund systems were up to date with the
                        latest patches. Also, CDFI Fund staff had implemented a suite of
                        monitoring tools for its network that reported current patch levels,


1
    Government Accountability Office, Government Auditing Standards, GAO-07-731G (July 2007).

                        Improvements Needed in CDFI Fund’s Access Controls and
                        Configuration Management (OIG-10-037)                                   Page 2
             monitored for suspicious activities, and provided notification to
             administrators of potentially suspicious activities. As result, we
             were unsuccessful in establishing remote connection into the CDFI
             Fund’s network. However, we noted that improvements are needed
             in key access controls and in configuration management to prevent
             unauthorized users from gaining access and compromising data on
             the CDFI Fund’s public Web site and within its network.

             We found the following weaknesses:

             1. Weak passwords were used in CDFI Fund applications and
                systems.
             2. CDFI Fund systems were configured with insecure default
                settings.
             3. A critical patch was not applied for one CDFI Fund system.

             We are making seven recommendations to the CDFI Fund Director
             to address the findings noted above.

             In a written response, the CDFI Fund Director provided plans for
             corrective actions that are responsive to the intent of our
             recommendations (see appendix 2).

Background
             The CDFI Fund's mission is to expand the capacity of financial
             institutions to provide credit, capital, and financial services to
             underserved populations and economically distressed communities
             in the United States. The CDFI Fund was created to promote
             economic revitalization and community development through
             investment in and assistance to community development financial
             institutions. The CDFI Fund was established by the Riegle
             Community Development and Regulatory Improvement Act of
             1994.

             Since its creation, the CDFI Fund has awarded $1.13 billion to
             community development organizations and financial institutions (as
             of September 30, 2009). The CDFI Fund was further expanded in
             fiscal year 2009 with the enactment of legislation that created the
             Capital Magnet Fund, which will be implemented in fiscal year
             2010, subject to funding availability. In addition, the CDFI Fund

             Improvements Needed in CDFI Fund’s Access Controls and
             Configuration Management (OIG-10-037)                           Page 3
            has allocated $26 billion in tax credit authority to Community
            Development Entities through the New Markets Tax Credit
            program.

            To help ensure the important mission of the CDFI is fulfilled, strong
            security controls are necessary to protect the confidentiality,
            integrity, and availability of the Fund’s data and systems. Weak
            controls provide unauthorized users an opportunity to launch
            various programs that could allow them to view sensitive
            information, change or delete data, discover user names and
            passwords, initiate denial-of-service attacks, attack other entities,
            and impair the reputation and mission of the CDFI Fund.

Findings and Recommendations

Finding 1   Weak Passwords Were Used in CDFI Fund Applications
            and Systems

            We determined that weak passwords were used in CDFI Fund
            applications and systems and that weak default passwords were
            used on the myCDFI Web site. In addition, 21 user accounts had
            passwords that were set to never expire. Two of these were end-
            user accounts for information technology personnel and one was
            an administrative account. We also found that databases had login
            accounts containing either blank passwords, passwords identical to
            the login name, or easily guessed passwords. One of these login
            accounts had full administrative rights on the databases and access
            to both personally identifiable information and potentially sensitive
            information. While the CDFI Fund password policy specifically
            addresses user accounts, it does not establish requirements for
            passwords used by applications and services.

            We also found six printers that we were able to log onto using File
            Transfer Protocol (FTP) with blank login user IDs and passwords. A
            user would be able to use this access to view and download files
            sent to the printer and utilize the FTP service to attack other
            systems on the network. It should be noted that the CDFI Fund
            quickly corrected this problem after we discovered it. It should also
            be noted that we subsequently verified these accounts were in fact
            disabled. Therefore, we are not making a recommendation to
            address this particular issue.

            Improvements Needed in CDFI Fund’s Access Controls and
            Configuration Management (OIG-10-037)                            Page 4
National Institute of Standards and Technology (NIST) Special
Publication (SP) 800-53 Revision 2, Recommended Security
Controls for Federal Information Systems, states that an
information system should enforce assigned authorizations for
controlling access to the system in accordance with applicable
policy and that an organization should enforce password minimum
and maximum lifetime restrictions. In addition, as noted above,
CDFI Fund password policy requires use of strong passwords for
user accounts.

The Web site and database password weaknesses resulted from
poor implementation of security procedures during the development
of custom CDFI Fund applications. We were unable to determine
the specific cause of the nonexpiring passwords but nonexpiring
passwords typically result from administrators’ efforts to minimize
the need to synchronize passwords for network devices and shared
administrative accounts. The six printers that we were able to log
onto using FTP with blank login user IDs and passwords were
printers on which the CDFI Fund network administrator was
unaware that FTP service was active.

Poor administrative practices, such as failure to change default
password or allowing the use of easily guessed passwords or blank
passwords, often result in successful attacks on systems because
they make it easier for attackers to gain unauthorized access. Once
attackers gain access, they can both obtain sensitive information
from a system and gather information that makes further attacks
easier. Attackers who have gained access to a system are in a
much better position to launch additional attacks that reach further
into a system and to install backdoors that can bypass other
security protections.

Recommendations

We recommend that the Director of the CDFI Fund do the
following:

1. Update the CDFI Fund password policy to require strong
   passwords and password expirations for CDFI Fund applications



Improvements Needed in CDFI Fund’s Access Controls and
Configuration Management (OIG-10-037)                          Page 5
               and databases and enforce this policy for all CDFI Fund
               applications and databases.
            2. Generate unique passwords for new user accounts and require
               that new users change their assigned default password during
               their initial login to the myCDFI application.

            Management Response

            The CDFI Fund has updated its password policy to require strong
            passwords and password expirations for all applications and
            databases. The CDFI Fund is currently enforcing this policy.

            The CDFI Fund has generated unique, strong passwords for all new
            and current user accounts. The CDFI Fund requires that new users
            change their assigned default password during their initial login to
            the myCDFI application. This mitigation action was completed
            November 15, 2009.

            OIG Comment

            Management’s reported corrective actions are responsive to the
            intent of our recommendations.

Finding 2   CDFI Fund Systems Were Configured With Insecure
            Default Settings

            We determined that some CDFI Fund systems were running
            software with insecure default configuration settings. Based on our
            network scans, we found the following:

               •   Ten systems where users could obtain the Windows
                   password policy without authentication.

                   The Windows password policy contains sensitive information
                   about minimum password length, password lockout
                   threshold, password lockout duration, and so on.

               •   As discussed in Finding 1 above, six printers running the FTP
                   server service were found that did not have passwords.

                   The FTP service is installed by default on many printer

            Improvements Needed in CDFI Fund’s Access Controls and
            Configuration Management (OIG-10-037)                            Page 6
       controllers and often is configured in an unsecure manner.
       The CDFI Fund network administrator indicated that they
       were unaware the service was active on these printers and
       that it was unnecessary. The administrator subsequently
       disabled the service on each printer.

   •   Ten systems with default or guessable Simple Network
       Management Protocol (SNMP) read-only community names.

       SNMP is a commonly used network service that provides
       network administrators with information about devices
       connected to the network. Ten SNMP servers were
       configured with simple default community names, which
       should be changed by the system administrators prior to
       deployment. The community name functions as the
       password for access to the device. Anyone who knows the
       read-only community name and has a network connection to
       the device can retrieve sensitive technical information about
       the device configuration.

   •   Four systems with default or guessable SNMP read/write
       community names.

       Anyone who knows the read/write community name and has
       a network connection to the device can retrieve information
       about the device configuration, change the configuration, or
       disable the device.

   •   One system with two vulnerabilities related to the default
       sample programs installed on the Apache Tomcat server.

       A Tomcat server is used to host Web-based applications
       utilizing the Java programming language. An attacker could
       exploit these vulnerabilities to send attack code to the user’s
       Web browser. This code can be used to retrieve information
       stored in the browser, redirect the user to another Web site,
       or issue additional Web page requests on the user’s behalf.

NIST’s Recommended Security Controls for Federal Information
Systems requires organizations to configure their information
systems to provide only essential capabilities and specifically


Improvements Needed in CDFI Fund’s Access Controls and
Configuration Management (OIG-10-037)                            Page 7
prohibit or restrict the use of agency-defined functions, ports,
protocols, or services. In addition, NIST SP 800-123, Guide to
General Server Security, recommends SNMP be removed or
disabled if it is not required. NIST SP 800-44, Guidelines on
Securing Public Web Servers, recommends that system
administrators remove all example or test files from servers,
including scripts and executable code.

Default settings on network services existed because
administrators did not harden the systems before placing them in
the production environment.

Anonymous access to domain password information allows
attackers connected to the CDFI Fund network without
authentication to design password attacks within the confines of
the policy. Customizing the password attack list significantly
decreases the number of passwords an attacker would have to
guess. Unnecessary services can provide methods of attack that
would not be possible if the service was disabled. If SNMP
community names are not changed from the default, attackers can
use them to view and modify system configurations. Finally, the
presence of known vulnerable sample applications on the Apache
server can allow attackers to steal login IDs and other information
from legitimate users of the system.

Recommendations

We recommend that the Director of the CDFI Fund do the
following:

3. Implement Windows security settings that prevent
   unauthenticated users from accessing domain policies.
4. Scan all CDFI systems on a regular basis to determine if
   unnecessary services are present and remove unnecessary
   services.
5. Change SNMP community names to comply with Treasury
   password requirements or remove or disable unnecessary SNMP
   services on network devices.
6. Remove sample applications installed on the Apache Tomcat
   server.



Improvements Needed in CDFI Fund’s Access Controls and
Configuration Management (OIG-10-037)                              Page 8
            Management Response

            The CDFI Fund has implemented windows security settings that
            prevent unauthenticated users from accessing domain policies. The
            CDFI Fund currently performs monthly Federal Information Security
            Management Act compliant and Federal Desktop Core
            Configuration vulnerability scans and all unneeded services have
            been removed from all the CDFI Fund's servers. Additionally, CDFI
            Fund has changed all SNMP read/write community strings to
            passwords that meet/exceed Treasury requirements. Finally, the
            CDFI Fund removed the Documentum services from the enterprise
            in November of 2009. The Documentum application/service
            contained two Tomcat vulnerabilities that were identified in the
            OIG's audit.

            OIG Comment

            Management’s reported corrective actions are responsive to the
            intent of our recommendations.

Finding 3   A Critical Patch Was Not Applied for One
            CDFI Fund System

            Although most CDFI Fund systems had current critical security
            patches installed, we identified one system missing a critical patch
            which allowed remote exploitation. We succeeded in exploiting this
            vulnerability during our test and gained system-level access, which
            allows full control of a system. While system level access did give
            us full control of the specific system that lacked the critical patch,
            that system had no access privileges to other CDFI Fund systems.
            As a result, we were unable to directly access CDFI Fund network
            servers based on the access level gained on this system. However,
            an attacker could use this level of access to reconfigure or disable
            the system, store and transmit information, or serve malicious
            content to CDFI Fund users from within the network. The system
            that lacked the patch is used specifically to control a printer and is
            not a critical system.



            Improvements Needed in CDFI Fund’s Access Controls and
            Configuration Management (OIG-10-037)                            Page 9
Treasury Directive Publication 85-01, Treasury Information
Technology Security Program, requires bureaus to ensure that
security patches are tested and installed on a timeline in
accordance with the criticality of the patches.

According to the CDFI Fund system administrator, the system had
not been patched because it was part of a printer.

Without the critical patch, the printer was vulnerable to attack. An
attacker could view any documents sent to the printer, modify
printer settings, and use the compromised printer to attack other
CDFI Fund systems.

Recommendation

We recommend that the Director of the CDFI Fund do the
following:

7. Apply critical security patches on the identified system, disable
   the identified system, or provide another compensating
   control(s) if patches are not available.


Management Response

The actual system identified in the OIG's findings was a printer
which was disabled and removed from the network in January of
2010. The CDFI Fund has also removed similar systems from the
network to mitigate any future risk.

OIG Comment

Management’s reported corrective action is responsive to the intent
of our recommendation.




Improvements Needed in CDFI Fund’s Access Controls and
Configuration Management (OIG-10-037)                          Page 10
                                ******

I would like to extend my appreciation to the Director of the CDFI
Fund and to CDFI Fund staff for the cooperation and courtesies
extended to my staff during the audit. If you have any questions,
please contact me at (202) 927-5171 or Susan Miller, Audit
Manager, at (202) 927-5746. Major contributors to this report are
listed in appendix 3.

/s/


Tram Jacquelyn Dang
Audit Director




Improvements Needed in CDFI Fund’s Access Controls and
Configuration Management (OIG-10-037)                        Page 11
Appendix 1
Objective, Scope, and Methodology




The purpose of this audit was to assess the security of the
Community Development Financial Institutions (CDFI) Fund’s
network and systems. Our overall objective was to determine if the
CDFI Fund had sufficient protections in place to prevent intrusions
into its network and systems.

To accomplish our objective, we performed a series of vulnerability
assessments and penetration tests of the CDFI Fund’s network and
systems. Penetration testing was performed external to the CDFI
Fund’s network using only information available to the general
public. Vulnerability assessments inside the CDFI Fund’s network
were performed from an administrative perspective with full
knowledge and system access. We performed a series of social
engineering tests to determine whether CDFI Fund users were
aware of cybersecurity threats and users’ role in protecting agency
information technology resources. The results of this audit may be
used to support our work undertaken in accordance with the
requirements of the Federal Information Security Management Act.

We performed our fieldwork at CDFI Fund facilities in Washington,
DC, from February through April 2009. The audit was performed in
accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our
audit objectives.




Improvements Needed in CDFI Fund’s Access Controls and
Configuration Management (OIG-10-037)                        Page 12
Appendix 2
Management Response




Improvements Needed in CDFI Fund’s Access Controls and
Configuration Management (OIG-10-037)                    Page 13
Appendix 2
Management Response




Improvements Needed in CDFI Fund’s Access Controls and
Configuration Management (OIG-10-037)                    Page 14
Appendix 2
Management Response




Improvements Needed in CDFI Fund’s Access Controls and
Configuration Management (OIG-10-037)                    Page 15
Appendix 2
Management Response




Improvements Needed in CDFI Fund’s Access Controls and
Configuration Management (OIG-10-037)                    Page 16
Appendix 2
Management Response




Improvements Needed in CDFI Fund’s Access Controls and
Configuration Management (OIG-10-037)                    Page 17
Appendix 2
Management Response




Improvements Needed in CDFI Fund’s Access Controls and
Configuration Management (OIG-10-037)                    Page 18
Appendix 2
Management Response




Improvements Needed in CDFI Fund’s Access Controls and
Configuration Management (OIG-10-037)                    Page 19
Appendix 2
Management Response




Improvements Needed in CDFI Fund’s Access Controls and
Configuration Management (OIG-10-037)                    Page 20
Appendix 2
Management Response




Improvements Needed in CDFI Fund’s Access Controls and
Configuration Management (OIG-10-037)                    Page 21
Appendix 3
Major Contributors To This Report




   Office of IT Audits

   Tram J. Dang, Director
   Susan Miller, IT Audit Manager
   Gerald J. Steere, IT Specialist (Lead)
   Abdil Salah, IT Specialist
   Jane E. Lee, IT Specialist
   Larissa Klimpel, IT Specialist
   Timothy Cargill, Referencer




Improvements Needed in CDFI Fund’s Access Controls and
Configuration Management (OIG-10-037)                    Page 22
Appendix 4
Report Distribution




Community Development Financial Institutions Fund

   Director

Department of the Treasury

   Office of Accounting and Internal Control
   Office of Strategic Planning and Performance Management
   Office of the Chief Information Officer


Office of Management and Budget

   Office of Inspector General Budget Examiner




Improvements Needed in CDFI Fund’s Access Controls and
Configuration Management (OIG-10-037)                    Page 23
